              Office of the Inspector General
                              Gregory H. Friedman
                               Inspector General




Cover Pictures

(from left to right)

Handford Site - A remotely operated machine moves on tracks and is equipped to take
core samples from the concrete floor at the U Plant Canyon Facility as part of the Canyon
Disposition Initiative (CDI). This versatile machine can also be equipped with cameras
and other sampling equipment. Technology like this is allowing workers to safely perform
work previously not possible due to highly contaminated conditions.

A scanning microscope image of platinum-lace nanoballs. Liposomes aggregate,
providing a foamline template for a platinum sheet to grow.

FM-5 Target Missile lifts off from Kauai Test Facility’s Pad 1.
ANNUAL PERFORMANCE REPORT
         FY 2007

ANNUAL PERFORMANCE PLAN
        FY 2008




    U.S. DEPARTMENT OF ENERGY
   OFFICE OF INSPECTOR GENERAL
THIS PAGE INTENTIONALLY LEFT BLANK
Measuring FY 2006 Performance Results




Message from the
Inspector General
I am pleased to present the Office of Inspector General’s combined Fiscal Year 2007
Annual Performance Report and Fiscal Year 2008 Annual Performance Plan.

This year, the Department of Energy (Department) celebrated the 30th anniversary
of its establishment. The implementing legislation, the Department of Energy
Organization Act, also created the Office of Inspector General. Thus, since 1977,
the Office of Inspector General has strived to aid the Department in achieving its
missions. Continuing this effort, during Fiscal Year (FY) 2007, we examined a variety
of issues that are of vital importance to the Department and the Nation as a whole. As
a direct result of our audits and inspections, significant opportunities for programmatic
cost savings, operational efficiencies, and enhanced mission accomplishments
were identified. During FY 2007, we issued 109 audit and inspection reports. Our
performance audit reports contained recommendations for enhancing operations with
likely savings of over $73 million. In addition, we referred 32 criminal cases for
prosecution, obtained 46 convictions, and recovered more than $9 million in fines,
restitutions and settlements.

The Office of Inspector General (OIG) is proud to have played a critical role this past
year in providing Department of Energy senior management with recommendations
for improving the effectiveness of programs and operations. During the course of our
work, the OIG places special emphasis on those issues that we annually identify as
significant management challenges facing the Department. Consequently, during FY
2007, we issued a number of reports addressing concerns in areas such as safeguards
and security, environmental cleanup, stockpile stewardship, cyber security, and contract
management.

Let me take a moment to focus on the Department’s contract management activities.
Employing more than 100,000 contractor personnel, more than any other civilian agency,
the Department relies heavily on the efforts and experience of its contractor workforce.
In addition to issuing several reports on various programmatic matters related to contract
management concerns within the Department, the OIG was asked to testify before Congress
on several occasions during the past year on issues related to contract management.

Through our published reports and congressional testimony, we have emphasized the
centrality of effective contract administration to the management of the Department’s many
programs.



                                             
OFFICE OF INSPECTOR GENER AL                        U . S . D E PA R T M E N T O F E N E R G Y
Message from the
Inspector General                                      (continued)

The Office of Inspector General remains committed to being an instrument for positive
change in the Department. We again look forward to serving the American taxpayers in
identifying ways that the Department can more effectively and efficiently achieve its vital
mission responsibilities.




		                                                           Gregory H. Friedman
		                                                           Inspector General
Measuring FY 2006 Performance Results




Table of Contents
                                                                                                                         Page

Overview, Vision and Mission .......................................................................................... 1

Measuring FY 2007 Performance Results ..................................................................... 3

Relationship with the Department of Energy................................................................ 19

FY 2008 Funding Priorities . .......................................................................................... 21

FY 2008 Annual Performance Plan ............................................................................... 25

Office of Audit Services . ................................................................................................. 33

Office of Investigations..................................................................................................... 41

Office of Inspections and Special Inquiries .................................................................. 45

Appendix A
	 FY 2008 Performance Plan Schedule ........................................................................ 47

Appendix B
	 OIG Responsibilities and Authorities and Other Mandates......................................... 55

Appendix C
	 OIG Organization ...................................................................................................... 57

Appendix D
	 Validation and Verification . ........................................................................................ 59




                                                              iii
OFFICE OF INSPECTOR GENER AL                                             U . S . D E PA R T M E N T O F E N E R G Y
THIS PAGE INTENTIONALLY LEFT BLANK
Measuring FY 2006 Performance Results




Overview, Vision and Mission

A    s mandated by the Inspector General Act of 1978, as amended, the Office of
     Inspector General promotes the effective operation of the Department of Energy
(Department), including the National Nuclear Security Administration (NNSA) and the
Federal Energy Regulatory Commission (FERC). This is accomplished through audits,
investigations, and inspections designed to improve economy and efficiency and to detect
and prevent fraud, waste, abuse, mismanagement, and violations of law. As part of a
collective effort, the OIG’s goal is to ensure that the Department is:

   n	   Fulfilling its program goals effectively;

   n	   Using its resources efficiently in this pursuit;

   n	   Operating within the scope of its legislative mandates;

   n	   Meeting the President’s Management Agenda; and,

   n	   Addressing Departmental priorities established by the Secretary.

This report highlights the OIG’s FY 2007 actual performance and FY 2008 planned
activities. The goals, objectives, and strategies included in this document will be used
to plan, measure and report on OIG results. This document includes the results of FY
2007 audits, investigations, inspections, and special requested actions; constant efforts to
improve the OIG in alignment with the President's Management Agenda; the relationship
between the Department and the OIG; and, the plan to fund and accomplish FY 2008
goals. Appendices include the FY 2008 performance plan schedule; OIG responsibilities,
authorities and other mandates; the OIG organization; and, validation and verification of
OIG performance activities.


Vision:
To be a highly effective organization that promotes positive change by identifying
opportunities for improvements in the performance and efficiency of the Department’s
programs and operations.


Mission:
To promote the effective, efficient, and economical operation of the Department through
audits, investigations, inspections, and other reviews to detect and prevent waste, fraud,
abuse, and violations of law.




                                               
OFFICE OF INSPECTOR GENER AL                           U . S . D E PA R T M E N T O F E N E R G Y
THIS PAGE INTENTIONALLY LEFT BLANK
Measuring FY 2006 Performance Results




Measuring FY 2007
Performance Results
In FY 2007, the OIG continued to make positive contributions to the Department’s
mission-related priorities. Some highlights of our work in FY 2007 include:

    n	   $73 million in recommendations that funds be put to better use;

    n	   $9.4 million in investigative fines, settlements, and recoveries;

    n	   46 criminal convictions;

    n	   57 suspensions and debarments;

    n	   1,208 hotline complaints and inquiries processed;

    n	   68 civil or administrative actions taken; and,

    n	   Approximately $137 million in potential recoveries from 20 open False Claims
         Act investigations.

The OIG measures its performance against the long-term and annual goals set forth in
OIG planning documents. During this reporting period, the OIG successfully achieved
its FY 2007 performance goals. In most instances, the OIG exceeded its goals. The
following are the specific results:


Goal 1:
	   Promote the President’s Management Agenda and the Mission Priorities of the
    Secretary and Congress

Objective 1:
	   Conduct reviews seeking positive change in the Department relating to the
    implementation of the initiatives in the President’s Management Agenda, the
    Secretary’s Priorities, and the OIG-identified Management Challenges.

Performance Measure:
	   Conduct reviews as outlined in the OIG annual plan relating to: (1) the President’s
    Management Agenda; (2) the Secretary’s Mission Priorities; and, (3) OIG-identified


                                               
OFFICE OF INSPECTOR GENER AL                           U . S . D E PA R T M E N T O F E N E R G Y
                                                         Measuring FY 2006 Performance Results




   Management Challenges. Specifically:

   n	   Complete reviews that address each Presidential, Secretarial, and OIG-identified
        initiative, priority, and/or challenge as identified in FY 2005, to be completed by
        2011.

   n	   Initiate a review within one year of any new Department initiatives and priorities.

Accomplishment: Met Goal.
The OIG completed reviews that addressed every Presidential, Secretarial, and OIG-
identified initiative, priority, and/or challenge as identified in FY 2005. Performance
audits were initiated on two major Department initiatives – selected aspects of the
Energy Policy Act of 2005 and the Loan Guarantees for Innovative Energy Technologies
Program.

During FY 2007, the Office of Audit Services conducted a total of 76 audits that
addressed the President’s Management Agenda, the Secretary’s Mission Priorities,
and OIG-identified Management Challenges. For example, audits were conducted to
determine whether:

   n	   The Department had developed a comprehensive cleanup strategy for the
        remediation of the burial grounds storing nuclear waste at Hanford.

   n	   The weapons surveillance testing backlog at the Department had been resolved.

   n	   The Department was effectively recovering funds to offset operating costs for
        the proprietary use of the Advanced Photon Source at the Argonne National
        Laboratory.

During FY 2007, the Office of Inspections and Special Inquiries completed 39 reviews
that addressed the President’s Management Agenda initiatives, the Secretary’s Mission
Priorities, and OIG-identified Management Challenges. For example, the Office
conducted reviews to determine whether:

   n	   Los Alamos National Laboratory’s Material Control and Accountability Program
        was providing timely and accurate information regarding the inventory, transfers,
        characteristics and location of accountable nuclear materials at the Laboratory.

   n	   Lawrence Livermore National Laboratory (1) excessed unclassified computers
        and other electronic memory devices in accordance with applicable policies
        and procedures; and, (2) had adequate internal controls in place to prevent the
        unauthorized dissemination of unclassified, controlled information.


                                              
OFFICE OF INSPECTOR GENER AL                         U . S . D E PA R T M E N T O F E N E R G Y
Measuring FY 2006 Performance Results




    n	   Los Alamos National Laboratory (1) falsified work packages, as alleged; and,
         (2) prepared and approved work packages in accordance with the Integrated Work
         Management process.


GOAL 2:
	   Improve economy and efficiency and reduce waste, fraud, and abuse within the
    Department

Objective 2:
	   Concentrate OIG efforts on issues that have the greatest impact and usefulness to the
    Department.

Performance Measures:
    n	   Ensure that every performance review includes an analysis of program
         accomplishments and the use of metrics to measure results.

    n	   Ensure that at least 55 percent of all performance audits include recommendations
         leading to demonstrable cost savings, program efficiencies, and/or funds that can
         be put to better use.

    n	   Complete at least five follow-up reviews annually to determine the status and
         efficacy of corrective actions.

    n	   Complete an annual risk-based programmatic assessment that considers OIG
         institutional knowledge; past program performance; funding levels; Presidential,
         Secretarial, and congressional concerns; and, input from Department program
         managers.

    n	   Ensure that each year at least 80 percent of all planned performance audits
         address high-risk areas as identified in the OIG annual risk-based programmatic
         assessments.

    n	   Strive for the Department to accept at least 77 percent of OIG report
         recommendations.

Accomplishment: Exceeded Goal.
In FY 2007, all of the 51 performance audits completed included an analysis of program
accomplishments and the use of metrics to measure results. The OIG was able to assist
the Department in analyzing the operation of various programs and determining whether
or not those programs were effectively measuring their performance.


                                              
OFFICE OF INSPECTOR GENER AL                         U . S . D E PA R T M E N T O F E N E R G Y
                                                             Measuring FY 2006 Performance Results




For the performance audits issued, 67 percent identified demonstrable cost savings,
program efficiencies and/or funds that can be put to better use in excess of $86 million.
For example, the Department agreed to implement a more rigorous oversight process
on the contractor and also conduct a review of the contractor’s procurement system as a
result of our audit of “Quality Assurance Standards for the Integrated Control Network
at the Hanford Site’s Waste Treatment Plant,” DOE/IG-0764. The Department could
potentially save more than $13 million for a control system that was not acceptable for
high level waste immobilization operations of the Hanford Waste Treatment Plant.

                                               Based on our audit of “Facility Contractor
                                               Acquisition and Management of Information
                                               Technology Hardware,” DOE/IG-0768,
                                               there is a potential for significant savings
                                               of $16.6 million over the next five years by
                                               improving the process for controlling hardware
                                               costs and implementing standards for certain
                                               equipment.

Reactor process equipment unearthed        Based on our audit of “Voluntary Separation
during remediation of burial grounds in    Program at the Idaho Cleanup Project,”
Hanford’s reactor areas along the Columbia DOE/IG-0765, the Department spent as
River. The contaminated equipment was      much as $10 million more for the contractor’s
disposed in the burial ground during reactor
                                           voluntary separation program than it had on
operations.
                                           other comparable efforts. Additionally, nearly
$2 million was spent to voluntarily separate employees whose skills were needed for the
cleanup mission and whose positions were backfilled within six months of the employees
being separated.

Based on our audit of “Follow-up
of Depleted Uranium Hexafluoride
Conversion,” DOE/IG-0751, there is a
potential that the Department could save
$35 million by adding a fourth conversion
line to the Portsmouth facility and reduce
the operations schedule by nearly five
years.

Nine of the 51 performance audits
completed were follow-up reviews to                 Paducah - a cylinder stacking machine used
determine the status and efficacy of                to handle depleted Uranium Hexafluoride
corrective actions.                                 cylinders in the cylinder storage yards.



                                                
OFFICE OF INSPECTOR GENER AL                             U . S . D E PA R T M E N T O F E N E R G Y
Measuring FY 2006 Performance Results




Fundamental to the annual audit planning process is conducting risk assessments and
the development of audit profiles. The OIG considers all major contractor sites to be
high risk. Other considerations include OIG institutional knowledge; past program
performance; funding levels; and Presidential, Secretarial, and congressional concerns.
In FY 2007, we completed risk-based programmatic assessments for each Departmental,
NNSA and program activity. These risk assessments resulted in the identification of
significant auditable entities at various Department locations. Another part of our audit
planning process includes input from Department management, other interested parties,
and the OIG staff.

In FY 2007, 93 percent of our planned performance audits addressed high-risk and
sensitive areas as identified in the OIG annual risk-based programmatic assessments. In
addition to our planned audits, we also conducted audits in response to time-sensitive and
complex requests from the Secretary or Congress. For example, in October 2006, the
Secretary requested that the OIG examine circumstances surrounding an incident at the
Los Alamos National Laboratory concerning a possible compromise of classified data.
Our review disclosed that the security framework surrounding the incident was seriously
flawed. We found that (i) security policy was non-existent in some areas or inconsistently
applied or was not followed in other areas; (ii) critical cyber security internal controls
and safeguards were not functioning as intended; and (iii) monitoring by the Department
and the contractor was inadequate. We included recommendations to strengthen security
policies and procedures at the Department and the Laboratory.

Finally, there were 80 audit recommendations included in the performance
audits conducted in FY 2007. The Department concurred with 89 percent of our
recommendations. The following are summaries of positive outcomes resulting from
three significant audits:

   n	   The Department and the NNSA
        agreed to develop guidance
        to correct issues surrounding
        the effective management
        of contractors’ use of
        Intergovernmental Personnel Act
        and Change of Station assignments
        as a result of our report on
        "The Department of Energy’s
        Management of Contractor
        Intergovernmental Personnel and
        Change of Station Assignments,”
                                                   Diamond x-ray beam monitor at ANL’s
        DOE/IG-0761.
                                                   Advanced Photon source.


                                            
OFFICE OF INSPECTOR GENER AL                       U . S . D E PA R T M E N T O F E N E R G Y
                                                         Measuring FY 2006 Performance Results




   n	   After an OIG audit of the "Recovery of Costs for the Proprietary Use of the
        Advanced Photon Source,” DOE/IG-0753, the Department agreed to adjust
        its proprietary rates over the next two fiscal years to more closely reflect the
        proprietary users’ actual share of operating costs and improve financial controls.

   n	   The Department agreed to improve continuity of leadership to expedite the
        completion of materials consolidation based on the results of an audit on "The
        Department’s Energy, Science, and Environment Sites’ Implementation of the
        Design Basis Threat,” DOE/IG-0749.

The Office of Inspections and Special Inquiries ensured that all 24 performance reviews
completed included an analysis of program accomplishments and the use of metrics to
measure results or documented that an analysis was not appropriate or required. For
example, during an inspection of the Department’s workers’ compensation program,
we found that the Office of Human Resource Services’ Employee WorkLife Center did
not have performance measures to assess its management of the Headquarters workers’
compensation program. 

During FY 2007, the Office of Inspections and Special Inquiries initiated one follow-
up review to determine whether the Department had effectively implemented the
recommendations contained in prior reports concerning managerial oversight and
contracting of the protective force at the Oak Ridge Reservation.

In FY 2007, the Office of Inspections and Special Inquiries issued 33 inspection reports,
which contained a total of 80 recommendations to management. The Department
concurred with 91 percent of the inspection recommendations. The following are
examples of positive outcomes resulting from inspection recommendations:

   n	   The Department included provisions related to unexpected overtime in the
        new protective force contracts at Oak Ridge. These provisions will allow
        the Department to better control the profit paid to the contractor in times of
        heightened security.
     
   n	   The Department initiated a complex-wide policy for the training, use, health,
        welfare, and performance testing of dogs performing security tasks. Further, the
        Office of Health, Safety and Security developed and incorporated specific canine-
        related lines of inquiry into the conduct of all security inspections. These actions
        are aimed at ensuring the Canine Program provides an adequate level of protection
        for the Department’s personnel and facilities.

   n	   The Chief Information Officer (CIO) and the Cyber Security Working Group
        undertook preparation of new, long-term cyber security guidance on the disposal


                                              
OFFICE OF INSPECTOR GENER AL                         U . S . D E PA R T M E N T O F E N E R G Y
Measuring FY 2006 Performance Results




         of hard disk drives and other magnetic computer storage media and devices.
         Further, the CIO issued interim guidance stating that (1) no hard disk drive or
         other magnetic computer storage media or device should be sold, donated, or
         transferred to an off-site contractor or other organization for disposal and (2)
         degaussing should not be used as the sole means to purge data from these items.

    n	   The Office of Intelligence and Counterintelligence has taken action to ensure
         that NNSA’s export control analysts have continued direct access to intelligence-
         related documents and computer systems. This will allow the analysts to have
         access to updated and relevant intelligence information when reviewing export
         license applications and participating in interagency export groups.

Objective 3:
	   Provide timely information to the Department so that prompt action can be taken to
	   improve program performance.

Performance Measures:
    n	   Issue at least 80 percent of audit reports no later than 60 days following receipt of
         management comments.

    n	   Complete the field work for at least 75 percent of special inquiries within 60 work
         days.

    n	   Ensure that the average time required to issue Investigative Reports to
         Management (IRM) is 60 days or less following final resolution of criminal and
         civil investigations.

    n	   Complete the field work for at least 80 percent of inspections within 90 work days.

Accomplishment: Exceeded Goal.
For the audit reports completed in FY 2007, 96 percent were issued within 60 days
following receipt of management comments, providing timely information to Department
management.

During FY 2007, the Office of Inspections and Special Inquiries initiated one special
inquiry, and it was completed within 60 work days of initiation. The special inquiry
involved reviewing allegations that the MK-19, 40 millimeter Grenade Launcher (MK-
19) was being utilized by Pantex Plant protective force officers who lacked adequate
training on the weapon and had limited access to a training simulation system due
to manufacturing issues. Our inspection substantiated the allegations and identified
concerns with equipment, training, and qualification regarding the MK-19 at Pantex.


                                               
OFFICE OF INSPECTOR GENER AL                          U . S . D E PA R T M E N T O F E N E R G Y
                                                        Measuring FY 2006 Performance Results




IRMs were issued, on average, 31 days following final resolution of criminal and/or civil
action. The OIG received responses to recommendations made in IRMs during FY 2007,
with a 100 percent compliance rate. Department management took administrative action
against 48 individuals and obtained 28 debarments of contractors and individuals.

Examples of successes resulting from OIG investigative recommendations to
management include the following:

   n	   A senior-level Department manager violated the terms of his recusal
        statement by approving funds for Departmental sites that were responsible for
        administering programs and awarding several subcontracts to a company owned
        by the individual’s spouse. The individual also failed to disclose his spouse’s
        involvement with the company on his Annual Financial Disclosure Report. The
        manager was removed from employment in the Federal service.

   n	   A National Laboratory contractor provided inaccurate and potentially misleading
        information to the Department in response to a Departmental inquiry into the
        award of a subcontract. As a result of the OIG report, there was a reduction in
        award fee. The contractor also took a variety of actions, including the return of
        $250,000 to the Department.

   n	   A Department prime contractor failed to comply with it's internal, Department
        approved, procedures regarding general liability insurance requirements. This
        resulted in a reduction of $408,000 in award fees along with a disallowance of
        $341,000 in legal and settlement cost.

   n	   A National Laboratory contractor provided misleading information to
        the Department when requesting approval of a Cooperative Research and
        Development Agreement (CRADA) with a company owned and operated by two
        of the contractor’s employees. The employees worked and continued to earn full-
        time salaries from the contractor during the term of the CRADA. The Department
        disallowed $233,038 in costs to the contractor.

In FY 2007, the Office of Inspections and Special Inquiries completed the fieldwork
for 84 percent of its inspections within 90 work days. The following are examples of
inspection findings:

   n	   The Office of Secure Transportation (OST) did not: (1) categorize and control
        ammunition as sensitive property; (2) follow requirements for requesting
        ammunition for activities other than organized, approved training and execute
        required documentation for the issuance and receipt of ammunition; (3) ensure
        that ammunition transported on board NNSA aircraft by OST personnel


                                            10
OFFICE OF INSPECTOR GENER AL                        U . S . D E PA R T M E N T O F E N E R G Y
Measuring FY 2006 Performance Results




         was declared; (4) ensure that
         ammunition in the possession
         of Federal Agents was properly
         controlled; and, (5) ensure the
         accountability of armor piercing
         ammunition.

    n	   The Canine Programs at three
         Department sites were inadequate
         in a number of respects.
         Specifically, we found that half
         of the canine teams failed the
         explosives detection evaluation.
         Also, each of the canines we
                                               Hanford patrol K-9 dogs like Nitro, shown here
         observed in suspect apprehension
                                               with handler Pat Krzan, are trained to detect
         demonstrations failed to respond
                                               contraband or prohibited substances.
         to at least one of the handler’s
         commands. In addition, the canines were not receiving the minimum number of
         hours of weekly training for explosives detection.

    n	   NNSA delayed for 2 ½ years having Lawrence Livermore National Laboratory
         implement Department policy, first issued in February 2004, on clearing,
         sanitizing, and destroying memory devices. Due to the delay in implementing the
         Department policy, the Laboratory did not establish certain site-wide procedures
         and internal controls necessary to ensure the proper clearing, sanitization, and
         destruction of memory devices.

    n	   Internal controls for Sandia National Laboratory-California’s procurement card
         program did not ensure that purchases made using procurement cards were in
         accordance with applicable policies and procedures. Specifically, managers
         approved transactions that lacked adequate descriptions, and restricted items
         were purchased without the appropriate authorization. We also identified items
         of questionable allowability, such as catered meals and “souvenirs.” Further, we
         questioned whether the issuance of procurement cards to 44 percent of Sandia
         employees was consistent with procurement card guidance on limiting the number
         of procurement card users.

Objective 4:
	   Strengthen financial management and cyber security through completion of
    mandatory reviews in accordance with Office of Management and Budget and other
    applicable requirements.



                                              11
OFFICE OF INSPECTOR GENER AL                           U . S . D E PA R T M E N T O F E N E R G Y
                                                         Measuring FY 2006 Performance Results




Performance Measures:
    n	   Complete annually, by the established due date, the Department’s consolidated
         financial statement audits to determine whether the financial statements are free
         from material misstatement.

    n	   Review the Department’s unclassified information security system programs in
         accordance with the Federal Information Security Management Act (FISMA) of
         2002, by September 30, 2007.

    n	   Initiate at least 10 "Statement of Costs Incurred and Claimed" audits annually to
         assess internal controls over costs claimed by the Department’s major contractors.

Accomplishment: Exceeded Goal.
The OIG’s audit of the Department’s FY 2007 Consolidated Financial Statements resulted
in an unqualified opinion that was issued on November 9, 2007. Two significant internal
control deficiencies were discovered during the audit: accounting for environmental
liabilities and unclassified network security. Neither of the significant deficiencies was
considered to be material weaknesses.

In conjunction with the financial statement audit, we completed reviews of the
Department’s unclassified information security systems as required by FISMA. We found
that the Department had taken steps to improve cyber security practices and continued
to maintain strong network perimeter defenses against malicious intruders and other
external threats. While the Department is taking steps to improve its cyber security
posture, additional action is needed to reduce the risk of compromise to information
systems and data. We have identified areas for improvement, including certification and
accreditation of systems, information systems inventory, contingency planning processes,
and protection of personal information.

Finally, we completed 12 “Statement of Costs Incurred and Claimed” audits to determine
whether the Department’s integrated contractors were reimbursed for allowable costs
consistent with their contracts.

Objective 5:
	   Concentrate investigative efforts on allegations of criminal and civil violations of law
    that adversely impact major Department programs and operations, with emphasis on
    maximizing the recovery of public resources and deterring future wrongdoing.

Performance Measures:
    n	   Achieve an annual acceptance rate of at least 70 percent for cases presented for


                                             12
OFFICE OF INSPECTOR GENER AL                         U . S . D E PA R T M E N T O F E N E R G Y
Measuring FY 2006 Performance Results




        prosecutorial consideration.
   n	   Ensure that at least 75 percent of all cases opened focus on key areas of
        Department vulnerability, specifically procurement and grant fraud, environmental
        violations, Qui Tams, or computer crimes.

Accomplishments: Exceeded Goal.
The OIG achieved a prosecutorial acceptance rate of 86 percent during this fiscal year.
In addition, the OIG obtained 33 criminal indictments and 46 convictions, 3 pretrial
diversions, and 6 civil judgments. Seventy-nine percent of the cases opened in FY 2007
focused on key areas of vulnerability in the Department.

Examples of successes as a result of OIG investigations include:

   n	   A Department subcontractor submitted fraudulent test certifications and
        substandard metals to various Government agencies and their contractors. Five
        individuals pled guilty to multiple counts of false statements, false claims, and
        conspiracy. Two owners were sentenced to a total of 51 months incarceration,
        4 years of supervised release, and assessed $397,360 in restitution and fines.
        One employee was sentenced to two years probation, and three months of house
        arrest. Another employee was sentenced to 18 months probation and ordered to
        pay $7,288 in restitution and fines. The last employee was sentenced to a total of
        48 months in prison, 4 years supervised release, and ordered to pay $269,788 in
        restitution.

   n	   A Department subcontractor double-billed costs such as depreciation and lease
        expenses to both direct and overhead accounts. The contractor entered into a
        $1.2 million civil settlement with the Government.

   n	   A contractor employee who maintained child pornography on his Government
        computer and engaged in sexual activity with a mentally handicapped adult was
        sentenced to 16 years in prison.

   n	   A former National Laboratory small purchase buyer improperly requested three
        checks payable to a fictitious company totaling $55,000. The former employee
        was sentenced to four months incarceration, four months home confinement, three
        years supervised released, and was ordered to pay $35,789 in restitution and fines.

   n	   A former Department grantee employee made fraudulent purchases with a
        Government purchase card. The employee was sentenced to 16 months in
        Federal prison, 3 years of supervised release, and was ordered to pay $18,000 in
        restitution.



                                            13
OFFICE OF INSPECTOR GENER AL                        U . S . D E PA R T M E N T O F E N E R G Y
                                                         Measuring FY 2006 Performance Results




Objective 6:
	   Coordinate with other law enforcement agencies to establish effective networks in
    order to identify areas that are most vulnerable to waste, fraud, and abuse.

Performance Measure:
	   Ensure that at least 25 percent of all cases opened are joint agency task force
    investigations with external law enforcement agencies, such as the Federal Bureau of
    Investigation and other OIGs.

Accomplishments: Exceeded Goal.
The OIG opened 101 cases during FY 2007; 41 percent of which were joint agency task
force investigations. The following are examples of successes from joint agency task
force investigations:

    n	   A joint OIG investigation with the Royal Canadian Mounted Police and the
         Federal Bureau of Investigation determined that a Canadian citizen compromised
         an unclassified Department computer at the Los Alamos National Laboratory,
         as well as committed bank fraud, wire fraud, and identity theft unrelated to the
         Department. The Canadian citizen pled guilty to several Canadian Criminal Code
         offenses and was sentenced to 12 months probation and 200 hours of community
         service.

    n	   A Department courier attempted to and sold Department equipment restricted
         for use by Government, law enforcement, and military personnel. The courier
         pled guilty to 1 count of Wire Fraud and 1 count of Possession of Unregistered
         Firearm and was sentenced to 30 months of incarceration for each of the 2 counts,
         to be served concurrently, and 3 years of supervised release. The courier was also
         assessed $18,689 in restitution and fines.

    n	   A former Department subcontractor devised a scheme to launder money obtained
         from Department contracts using various businesses owned by the subcontractor
         company President, the Chief Operations Officer, family members and business
         associates. The company’s President was sentenced to 21 months incarceration,
         3 years supervised release, and ordered to pay $62,218 in restitution and fines;
         the Chief Operations Officer was sentenced to 5 months incarceration, 5 months
         home confinement and ordered to pay $12,078 in restitution and fines; and a third
         individual was sentenced to 3 years probation, 60 hours community service, and
         $23,638 in restitution and fines.




                                             14
OFFICE OF INSPECTOR GENER AL                         U . S . D E PA R T M E N T O F E N E R G Y
Measuring FY 2006 Performance Results




    n	   Seven individuals engaged in a fraud and forgery enterprise produced counterfeit
         checks and identification documents, to include counterfeit payroll checks from a
         Department Laboratory. One individual was sentenced to 18 years in a Colorado
         state prison, 33 months incarceration in Federal prison, 3 years of supervised
         release, and 500 hours drug treatment. Sentences will run concurrently. Another
         individual was sentenced to six years incarceration. A third individual was
         sentenced to 10 years incarceration and assessed $5,135 in restitution. Action is
         pending against the remaining individuals.

Objective 7:
	   Heighten awareness of potential fraud among internal and external customers.

Performance Measure:
	   Provide at least 20 fraud awareness briefings annually to Department and contractor
    employees and managers.

Accomplishments: Exceeded Goal.
The OIG investigative personnel conducted 53 fraud awareness briefings in FY 2007.
These presentations are designed to discuss the process for reporting fraud, waste, and
abuse to the OIG and to highlight priorities and initiatives of the Office of Investigations.
The following are examples of successes from cases initiated as a result of referrals from
Department and contractor employees and managers.

    n	   A GS-15 manager at a Department facility used their official position to help
         their spouse obtain a job with a Department contractor. The spouse earned
         nearly $100,000 in salary and commissions, as well as a company-paid trip to
         Hawaii, while employed for seven months with the contractor.  The manager
         initially failed to submit the proper recusal documentation and, once submitted,
         continued to be involved in contract decisions which resulted in more business
         for the contractor. The manager resigned from Government service and was
         convicted of conflict of interest, wire fraud, and making a false statement. The
         manager was sentenced to four months at a Community Corrections Center and
         five years probation. The Department debarred the manager and spouse for three
         years from Government contracting.

    n	   A now former National Laboratory employee conspired with a print shop
         vendor to submit 97 false claims totaling $126,175. The employee used a
         Government purchase card to pay the fraudulent claims. The now former
         employee was sentenced to 12 months house arrest, 5 years probation, and
         ordered to pay $126,000 in restitution. The print shop vendor was sentenced to


                                             15
OFFICE OF INSPECTOR GENER AL                         U . S . D E PA R T M E N T O F E N E R G Y
                                                        Measuring FY 2006 Performance Results




         3 years probation and 200 hours of community service. The former employee,
         the vendor, and the print shop were debarred for three years from Government
         contracting.

    n	   A former contractor employee at a National Laboratory submitted multiple
         fraudulent timecards, causing the contractor to pay for work the subject had
         not actually performed. Pursuant to a civil judgment, the subject paid $46,060
         in restitution and fines. The employee was debarred for three years from
         Government contracting.

    n	   A former National Laboratory employee operated a personal business and
         improperly accessed the Laboratory's network, downloading numerous web page
         templates that included names and passwords while employed at the Laboratory.
         The employee was sentenced to six months home detention with electronic
         monitoring, two years probation, and $26,100 in restitution and fines.


Goal 3:
	   Support the Taxpayer

Objective 8:
	   Provide the Department and the public with an effective and efficient mechanism to
    report waste, fraud, and abuse.

Performance Measures:
    n	   Operate the OIG Hotline in a manner that ensures at least 85 percent of Hotline
         complaints warranting further action begin processing within 7 days of receipt.

    n	   Forward at least 85 percent of the complaints identified for referral to
         Department or other agency management within 14 days of initiation of the case.

Accomplishment: Exceeded Goal.
One hundred percent of predicated Hotline complaints, which are those determined
to warrant further action, began processing within 7 days of receipt, and 99 percent
of complaints identified for referral were processed within 14 days of initiation of the
case. During the year, the OIG Hotline received 1,208 complaints/allegations; 399 of
those items were predicated; and 195 matters were referred to management, of which 92
requested a management response.

Objective 9:
	   Make the public aware of OIG reports.


                                            16
OFFICE OF INSPECTOR GENER AL                        U . S . D E PA R T M E N T O F E N E R G Y
Measuring FY 2006 Performance Results




Performance Measure:
	   Ensure that all OIG public reports that were identified for inclusion on the Internet
    are posted within three working days of submission to the Secretary, unless
    otherwise specified by the Inspector General.

Accomplishment: Met Goal.
All public reports identified for inclusion on the Internet were posted within three
working days. In addition, the OIG maintains an early alert system that provides
approved subscribers an advance notification of the release of OIG public reports.

Objective 10:
	   Provide a structure for ensuring a skilled and efficient workforce.

Performance Measures:
    n	   Establish and maintain an OIG core training program that identifies the education,
         skills, and core competencies necessary for positions in each OIG discipline.

    n	   Develop and implement an OIG-wide training coordination process to maximize
         the use of training funds and allocate training funds on an equitable basis.

    n	   Ensure individual development plans that tie to the OIG’s training program are
         developed for all OIG employees.

    n	   Ensure that all auditors meet the training requirements as specified by generally
         accepted Government Audit Standards.

    n	   Ensure that all investigators meet the training requirements as specified by Federal
         law enforcement and other related investigative standards.

    n	   Ensure that all inspectors meet the training requirements as specified by
         the President’s Council on Integrity and Efficiency “Quality Standards for
         Inspections.”

Accomplishments: Met Goal.
The OIG developed training requirements to ensure that auditors, investigators, and
inspectors receive required or otherwise appropriate training for their specialty. These
training requirements are stated in each employee’s individual development plan. Each
organization established a training coordinator position to: (1) monitor the allocation
and use of training funds; (2) ensure required training is scheduled and completed;
(3) integrate developmental and training requirements into the planning process; and,


                                             17
OFFICE OF INSPECTOR GENER AL                         U . S . D E PA R T M E N T O F E N E R G Y
                                                         Measuring FY 2006 Performance Results




(4) ensure employees have individual development plans. Auditors, inspectors, and
investigators all met their statutory training requirements.

Objective 11:
    Provide a process to ensure that the most qualified internal and external candidates are
    referred for positions.

Performance Measure:
	   Ensure a diverse, skilled talent pool for selection of new hires through the use of
    appropriate recruitment resources.

Accomplishments: Met Goal.
The OIG used all necessary hiring authorities, to include the Federal Career Intern
Program and the Student Career Entry Program, to ensure an adequate and diverse pool
of candidates for jobs. The OIG uses an automated application system to provide a user
friendly application process for candidates.




                                             18
OFFICE OF INSPECTOR GENER AL                         U . S . D E PA R T M E N T O F E N E R G Y
Measuring FY 2006 Performance Results




Relationship with the
Department of Energy
The work of the OIG continues to focus on the vital areas stated in the Department’s strategic
plan. The Department’s strategic themes of energy security, nuclear security, scientific
discovery and innovation, environmental responsibility, and management excellence are
key areas for OIG reviews and investigations. The OIG aligns its reviews along the same
themes, with emphasis on key challenges facing the Department. The OIG identification
of key challenges brings an even sharper delineation of issues for Departmental focus. The
following are the OIG-identified Management Challenges for FY 2008:

   n	 Safeguards and Security

   n	 Environmental Cleanup

   n	 Stockpile Stewardship

   n	 Contract Management

   n	 Project Management

   n	 Cyber Security

   n	 Energy Supply

In addition to responding to requests for special reviews or investigations from the Secretary
and Congress, the OIG continuously performs reviews at the Department through various
planned audits and inspections.


OIG Strategic Goal

The OIG’s strategic goal is to perform a robust review program that provides timely,
relevant performance information and recommendations to improve the Department’s
programs in relation to:

   1.	 The President’s Management Agenda;

   2.	 The Secretary’s priorities; and,

   3.	 OIG-identified Management Challenges.

To ensure the integrity of the Federal and contractor workforce, the OIG completes
statutory mandates, recovers monies, and provides opportunities for savings.

                                              19
OFFICE OF INSPECTOR GENER AL                          U . S . D E PA R T M E N T O F E N E R G Y
THIS PAGE INTENTIONALLY LEFT BLANK
Measuring FY 2006 Performance Results




FY 2008 Funding Priorities


OIG Funding by Strategic Goal

The OIG focuses its resources toward the most significant mission-related priorities and
challenges facing the Department. The OIG’s overarching strategic goal supports the
Department’s mission priorities and the President’s Management Agenda.


Strategic Goal 				                        FY 2007 		       FY 2008 	        FY 2008
					                                     Appropriated     Requested       Pre-conference

The OIG’s Strategic 				                      $41.8 		       $47.7		           $47.7
Goal is to operate a robust review		          million 	      million 	         million
program and provide timely
performance information and
recommendations to facilitate
the Department’s efforts to:
(1) implement the President’s
Management Agenda;
(2) resolve management challenges;
(3) execute the Secretary’s priorities;
and,(4) ensure the integrity of the
Federal and contractor workforce,
while ensuring that the OIG
completes statutory mandates,
recovers monies, and provides
opportunities for savings.


The OIG’s FY 2007 budget appropriation remained at FY 06 levels due to a year-long
continuing resolution. This action resulted in a temporary decrease of staffing and a
decrease in funds available for travel and training requirements. If the full FY 2008
budget is received, the additional funding will help to ensure that the OIG continues
to successfully meet its statutory requirements; and conduct independent audits,
investigations, inspections, and other reviews of the Department’s programs in a timely
and efficient manner.



                                            21
OFFICE OF INSPECTOR GENER AL                        U . S . D E PA R T M E N T O F E N E R G Y
                                                     Measuring FY 2006 Performance Results




Mission Priorities 			           Outcomes

Nuclear Security                 n	   Promote security, safety and reliability of
                                      Department programs to include vital national
                                      security capabilities such as the nuclear
                                      stockpile.

                                 n	   Facilitate the strengthening of the Department’s
                                      cyber security programs to protect the integrity,
                                      reliability, and confidentiality of critically
                                      important information.

                                 n	   Assist the Department in implementing the
                                      Design Basis Threat.

                                 n	   Promote effective intelligence and
                                      counterintelligence programs.

Energy Security and Scientific   n	   Contribute to the protection of the critical energy
Discovery and Innovation              infrastructure and supply.

                                 n	   Promote the implementation of the President’s
                                      National Energy Plan.

                                 n	   Assist in promoting research and development
                                      that directly relate to and support the missions
                                      of the Department and aid in ensuring greater
                                      application of mature technologies.

Environmental Responsibility     n	   Promote the advancement of energy, science and
                                      technology to achieve energy solutions.

                                 n	   Promote implementing environmental cleanup
                                      faster and cheaper.

Management Excellence            n	   Contribute to the success of the Department’s
                                      licensing and construction of a permanent
                                      repository for nuclear waste at Yucca Mountain.

                                 n	   Assess the Department’s management of
                                      uranium enrichment and civilian nuclear power
                                      development.


                                        22
OFFICE OF INSPECTOR GENER AL                     U . S . D E PA R T M E N T O F E N E R G Y
Measuring FY 2006 Performance Results




Management Excellence                   n	   Contribute to the effectiveness of the
                                             Department’s financial management (audit of
                                             the Department’s financial statements).

                                        n	   Assure the American public that the
                                             Department is fiscally responsible in carrying
                                             out its mission.

                                        n	   Promote effective contract management.

                                        n	   Contribute to the Department’s efficient and
                                             economic management of real property assets.

                                        n	   Foster responsiveness to complaints and
                                             allegations from Department and OIG
                                             customers.

                                        n	   Ensure the Department has metrics in place
                                             and uses them to manage its programs and
                                             activities effectively.

                                        n	   Promote worker and community safety.


Critical Outside Influences

Each year, the OIG is requested to conduct quick turnaround, unplanned, and resource
intensive reviews. These requests directly impact the OIG’s workload, formulating
budgets, evaluating procedures, and establishing priorities. Examples include:

Secretarial/Congressional Priorities. Emerging mission-related priorities require
the Secretary to request the OIG to conduct related reviews. Also, the OIG regularly
receives requests from various members of Congress and their staffs to conduct reviews
and provide information and to participate in briefings and hearings. These requests are
usually unanticipated and require immediate attention. Satisfying these requests often
affects the OIG’s progress in achieving its strategic planning goals.

New Statutory Requirements. New legislative mandates and unfunded audit,
investigative, inspection, or special inquiry requirements divert resources away from other
critical areas, including evaluating the performance of the Department’s programs and
operations as they relate to the President’s Management Agenda, the Secretary’s mission
priorities, and the most serious management challenges facing the Department.


                                             23
OFFICE OF INSPECTOR GENER AL                         U . S . D E PA R T M E N T O F E N E R G Y
THIS PAGE INTENTIONALLY LEFT BLANK
Measuring FY 2006 Performance Results




FY 2008 Annual Performance
Plan
Our work is important to the Department’s success in fulfilling its Strategic Plan to
address the energy, environmental, and nuclear security challenges and mission-related
goals. The OIG must ensure that its resources and activities cover the issues and concerns
most critical to the Department. This Performance Plan identifies the FY 2008 goals,
objectives, and measures that will help the OIG to better plan its priorities and continue
to assist the Department in identifying and taking corrective action to improve areas most
vulnerable to waste, fraud, and mismanagement. This Performance Plan also describes
the specific projects and activities the OIG plans to undertake during FY 2008 to continue
identifying opportunities for cost savings and operational efficiencies, and to continue to
return hard dollars to the Department and the U.S. Treasury.


FY 2008 Performance Measures

For FY 2008, the OIG will measure its accomplishments against the following
performance measures:


Goal 1:
	   Promote the President’s Management Agenda and the Mission Priorities of the
    Secretary and Congress

Objective 1:
	   Conduct reviews seeking positive change in the Department relating to the
	   implementation of the initiatives in the President’s Management Agenda, the
    Secretary’s Priorities, and the OIG-identified Management Challenges.

Performance Measures:
    n	   Conduct reviews as outlined in the OIG annual plan relating to: (1) the President’s
         Management Agenda initiatives; (2) the Secretary’s Mission Priorities; and, (3) the
         OIG-identified Management Challenges. Specifically:

    n	   Complete reviews that address each Presidential, Secretarial, and OIG-identified
         initiative, priority, and/or challenge as identified in FY 2007.



                                             25
OFFICE OF INSPECTOR GENER AL                         U . S . D E PA R T M E N T O F E N E R G Y
                                                          Measuring FY 2006 Performance Results




Goal 2:
	   Improve economy and efficiency and reduce waste, fraud, and abuse within the
    Department

Objective 2:
	   Concentrate OIG efforts on issues that have the greatest impact and usefulness to the
    Department.

Performance Measures:
    n	   Ensure that every performance review includes an analysis of program
         accomplishments and the use of metrics to measure results.

    n	   Ensure that 57 percent of all performance audits include recommendations leading
         to demonstrable cost savings, program efficiencies, and/or funds put to better use.

    n	   Complete five follow-up reviews annually to determine the status and efficacy of
         corrective actions.

    n	   By June 30, 2008, complete an annual risk-based programmatic assessment that
         considers OIG institutional knowledge; past program performance; funding levels;
         Presidential, Secretarial, and congressional concerns; and, input from Department
         program managers.

    n	   Ensure that each year 80 percent of all planned performance audits address high-
         risk areas as identified in the OIG annual risk-based programmatic assessments.

    n	   Strive for the Department to accept 79 percent of OIG report recommendations.

Objective 3:
	   Provide timely information to the Department so that prompt action can be taken to
    improve program performance.

Performance Measures:
    n	   Issue 80 percent of audit reports no later that 60 days following receipt of
         management comments.

    n	   Complete the field work for 75 percent of special inquiries within 60 work days.

    n	   Ensure that the average time to issue Investigative Reports to Management is 55
         days or less following final resolution of criminal and civil investigations.


                                              26
OFFICE OF INSPECTOR GENER AL                          U . S . D E PA R T M E N T O F E N E R G Y
Measuring FY 2006 Performance Results




    n	   Complete the field work for 80 percent of inspections within 90 work days.

Objective 4:
	   Strengthen financial management and cyber security through completion of
    mandatory reviews in accordance with Office of Management and Budget and other
    applicable requirements.

Performance Measures:
    n	   Complete annually, by the established due date, the Department’s consolidated
         financial statement audits to determine whether the financial statements are free
         from material misstatement.

    n	   By September 30, 2008, review the Department’s unclassified information
         security system programs in accordance with the Federal Information Security
         Management Act of 2002.

    n	   Initiate 10 “Statement of Costs Incurred and Claimed” audits annually to assess
         internal controls over costs claimed by the Department’s major contractors.

Objective 5:
	   Concentrate investigative efforts on allegations of criminal and civil violations of law
    that adversely impact major Department programs and operations, with emphasis on
    maximizing the recovery of public resources and deterring future wrongdoing.

Performance Measures:
    n	   Achieve an annual acceptance rate of 72 percent for cases presented for
         prosecutorial consideration.

    n	   Ensure 75 percent of all cases opened focus on key areas of Department
         vulnerability, specifically procurement and grant fraud, environmental violations,
         Qui Tams, or computer crimes.

Objective 6:
	   Coordinate with other law enforcement agencies to establish effective networks in
    order to identify areas that are most vulnerable to waste, fraud, and abuse.

Performance Measure:
    n	   Ensure 25 percent of all cases opened are joint agency/task force investigations
         with external law enforcement agencies, such as the Federal Bureau of
         Investigation and other OIGs.


                                             27
OFFICE OF INSPECTOR GENER AL                         U . S . D E PA R T M E N T O F E N E R G Y
                                                          Measuring FY 2006 Performance Results




Objective 7:
	   Heighten awareness of potential fraud among internal and external customers.

Performance Measure:
	   Provide 28 fraud awareness briefings annually to Department and contractor
    employees and managers.


Goal 3:
	   Support the Taxpayer

Objective 8:
	   Provide the Department and the public with an effective and efficient mechanism to
    report waste, fraud, and abuse.

Performance Measures:
    n	   Operate the OIG Hotline in a manner that ensures 85 percent of Hotline
         complaints warranting further action begin processing within 7 days of receipt.

    n	   Forward 85 percent of the complaints identified for referral to Department or other
         agency management within 14 days of initiation of the case.

Objective 9:
	   Make the public aware of OIG reports.

Performance Measure:
    n	   Ensure that all OIG public reports that were identified for inclusion on the Internet
         are posted within three working days of submission to the Secretary, unless
         otherwise specified by the Inspector General.

Objective 10:
	   Provide a structure for ensuring a skilled and efficient workforce.

Performance Measures:
    n	   Ensure that all auditors meet the training requirements as specified by generally
         accepted Government Auditing Standards.

    n	   Ensure that all investigators meet the training requirements as specified by Federal
         law enforcement and other related investigative standards.


                                              28
OFFICE OF INSPECTOR GENER AL                          U . S . D E PA R T M E N T O F E N E R G Y
Measuring FY 2006 Performance Results




    n	   Ensure that all inspectors meet the training requirements as specified by
         the President’s Council on Integrity and Efficiency “Quality Standards for
         Inspections.”

Objective 11:
	   Provide a process to ensure that the most qualified internal and external candidates are
    referred for positions.

Performance Measures:
    n	   Ensure a diverse, skilled talent pool for selection of new hires through the use of
         appropriate recruitment resources.


Mission Priorities

The OIG will focus its resources and planned activities toward the following priorities
supporting the Department’s strategic themes:


Nuclear Security

One of the primary responsibilities of the Department is to enhance national security
through the application of nuclear technology. The Department oversees the maintenance
of the U.S. nuclear weapons stockpile; the development of responsive infrastructure that
can adapt quickly to stockpile changes while drawing down the stockpile of weapons
excess to defense needs; the security of the nuclear complex and strengthening of
international nuclear nonproliferation controls; the reduction in global danger from
weapons of mass destruction; the provision to the U.S. Navy of safe, effective nuclear
propulsion systems; and, operation of its national laboratories.

The long-term effects of aging nuclear weapons and the implications of successive
warhead refurbishments need to be considered as the Department continues to draw down
the nuclear weapons stockpile to the lowest levels since the Eisenhower Administration.
To annually certify the readiness of the nuclear weapons, the Department has adopted
a science based Stockpile Stewardship Program that emphasizes development and
application of improved technical capabilities to assess the safety, security and reliability
of existing nuclear warheads without the use of nuclear testing.

The Department also announced Nuclear Weapons Complex 2030, a comprehensive
plan to enhance the U.S. capability to respond to changing national and global security


                                              29
OFFICE OF INSPECTOR GENER AL                          U . S . D E PA R T M E N T O F E N E R G Y
                                                        Measuring FY 2006 Performance Results




challenges. This plan calls for a smaller, safer and more secure nuclear weapons stockpile
that has assured reliability over the long term and is backed by the industrial and design
capabilities needed to respond to changing technical needs.


Environmental Responsibility

The Department’s environmental mission has become more important since the end
of the Cold War. Over 50 years of nuclear defense work and energy research resulted
in large volumes of solid and liquid radioactive waste along with significant areas of
contaminated soil and water. The Department is committed to safely cleaning up the
contamination from these operations and disposing of the waste in a manner that protects
the environment, the workers, and the public. The cleanup program is focused on
reducing risk, cleaning up more efficiently and cost effectively, and working with Federal,
State, and local regulatory policies that create challenges. The Department must also be
prepared to address the residual risks that will remain at most sites.

At the Department, the Office of Civilian Radioactive Waste Management is responsible
for constructing a geological repository at Yucca Mountain Nevada to manage and
dispose of commercial and defense spent nuclear fuel and other highly radioactive wastes
in a manner that protects health, safety and the environment. The ultimate consolidation
and disposal of nuclear waste at Yucca Mountain will support national and energy
security, reduce the number of locations where nuclear materials are stored, and maintain
the viability of the Navy’s nuclear powered fleet by providing a disposal path for the
Navy’s spent nuclear fuel.


Energy Security

The demand for energy in the U.S. is rising faster than the projected increase in domestic
energy production. The projected shortfall between domestic energy demand and
domestic supply is projected to increase nearly 50 percent by 2020. To make up for the
projected shortfall, various options – import more energy, improve energy conservation
and efficiency, and/or increase domestic supply – were considered. To avoid an increased
dependence on oil imports, which could jeopardize U.S. national and economic security,
the Department is taking steps to improve energy conservation and efficiency.

The Energy Policy Act, the first comprehensive energy plan in more than a decade,
encourages energy efficiency and conservation; promotes alternative and renewable
energy sources; reduces U.S. dependence on foreign sources of energy; increases



                                            30
OFFICE OF INSPECTOR GENER AL                        U . S . D E PA R T M E N T O F E N E R G Y
Measuring FY 2006 Performance Results




domestic production; modernizes the electricity grid; and, encourages the expansion of
nuclear energy.

The Department is working to develop technologies that will provide a diverse supply
of reliable, affordable, and environmentally sound energy. Some of these technologies
include renewable energy sources (including hydropower, wind, solar, bioenergy and
geothermal), nuclear energy, oil, natural gas, coal, and reductions in demand through
conservations and energy efficiency technologies and processes.


Scientific Discovery and Innovation

To remain competitive with other nations and achieve the major scientific discoveries
that will drive U.S. competitiveness, the Department is committed to advancing the
most critical basic research programs in physical sciences. The Department invests
in high-risk, high-value energy research and development that the private sector alone
would not or could not develop in a market driven economy. These technologies will
allow the major scientific discoveries that will revolutionize approaches to the Nation’s
energy, national security, and environmental quality challenges.

The Department’s responsibility under the American Competitiveness Initiative (ACI)
is to cultivate the U.S. scientific base to enable our Nation to compete and win in the
global marketplace of ideas and commerce. Specifically, ACI directs the Department
to: (1) increase financial support for innovation-enabling research in the fields of
physical science and engineering; (2) increase investments in the U.S. scientific
infrastructure; (3) improve the capacity, maintenance and operations of the national
laboratories; (4) provide mentored experiences for K-12 science teachers that will
transform them into teachers of science who encourage and inspire the next generation
of scientists and engineers; and, (5) provide training opportunities to increase the skills
and knowledge of the scientific and technical workforce.

A very important component of the Department’s science activities is its operation and
management of 10 national laboratories. Its goals are to deliver the basic scientific
research and knowledge for the Department’s applied technology programs through
strategic investments that advance discoveries in biology, chemistry, plasma science,
materials sciences, plant sciences, computation, and environmental studies and to
provide world-class research facilities and scientific human capital to the Nation’s
overall science enterprise. The national laboratories will play an important role as the
Department pursues innovations in science and technology.




                                            31
OFFICE OF INSPECTOR GENER AL                        U . S . D E PA R T M E N T O F E N E R G Y
                                                         Measuring FY 2006 Performance Results




Management Excellence

The Department manages a diverse portfolio of program missions, facilities,
and contractor resources over a nationwide complex that includes Headquarters
organizations, operations offices, field/site offices, national laboratories, power marketing
administrations, and sites dedicated to environmental cleanup. The offices that support
the corporate management framework are responsible for supporting the Secretary’s
initiatives to improve management and accountability while ensuring the safety, security,
and health of the workforce and public.

Some of the challenges the Department faces include:

   n	   Project Management

   n	   Contract Management

   n	   Performance Management

   n	   Information Technology Management

   n	   Safeguards and Security




                                             32
OFFICE OF INSPECTOR GENER AL                         U . S . D E PA R T M E N T O F E N E R G Y
Measuring FY 2006 Performance Results




Office of Audit Services
The Office of Audit Services (OAS) provides internal and contracted audit activities for
Department programs and operations, including the NNSA. The Office strives to provide
reliable, credible financial and performance information to senior management, the
Congress, and the taxpayers. The OAS recently reassessed its organizational structure to
better position it to meet the challenges of the future. Effective October 1, 2007, the OAS
reorganized to better align with the Department’s programmatic lines in national security
and energy, as well as in environment, science, financial, technology, and corporate
operations. The Office will concentrate its efforts on economy, efficiency and program
reviews, while maintaining sound oversight of the financial statement audit. This
organizational structure helps to ensure that audit work provides comprehensive coverage
over Department organizations, programs, and operations while meeting the Department’s
evolving needs.

The Office uses a risk-based process for identifying areas for audit coverage. Specific
areas with known or emerging risks and the greatest vulnerabilities are identified. This
process leads to conducting program performance reviews that address the President’s
Management Agenda; the Department’s strategic themes and goals; OIG-identified
management challenges; as well as congressional interests. A significant portion of audit
resources is directed toward meeting OIG statutory audit responsibilities in the financial
and information technology areas.

The OAS has scheduled 73 performance audits to start in FY 2008. Many non-
discretionary taskings from external sources impact the OAS workload and may require
postponement or cancellation of planned audits to accommodate these demands.
Following is a summary of the objectives for the audits that are scheduled to begin in
FY 2008, grouped by the Department’s business lines and our new reorganized structure.
The planned audit workload is summarized later in this plan.


National Security and Energy

To protect our national security by applying advanced science and nuclear technology to
the Nation’s defense, and to contribute to the protection of the Nation’s economic security
by promoting a diverse supply and delivery of reliable, clean, and affordable energy, the
following audits will determine whether the:

   n	   Los Alamos National Laboratory (LANL) Fire Protection Program’s pre-existing
        conditions were corrected and resolved (A08LA010)

                                            33
OFFICE OF INSPECTOR GENER AL                        U . S . D E PA R T M E N T O F E N E R G Y
                                                         Measuring FY 2006 Performance Results




  n	   LANL can account for government furnished and subcontractor acquired property
       (A08LA012)

  n	   Dual Axis Radiographic Hydrodynamic Test's second axis will meet mission
       requirements (A08LA015)

  n	   Pantex Throughput Improvement Plan has achieved its goals (A08YT029)

  n	   Y-12 site contractor has fully implemented its quality assurance corrective action
       plan (A08YT030)

  n	   Department is maintaining the facilities and infrastructure at the Nevada Test Site
       to meet current and future national security missions (A08LV022)

  n	   NSTec’s FY 2007 claimed costs are allowable, allocable, and reasonable
       (A08LV023)

  n	   Stanford Linear Accelerator Center will complete the Linac Coherent Light
       Source project as planned to meet the Department's mission requirements and
       science objectives (A08LL018)

  n	   Concerns identified over use control assessments are resolved in a timely manner
       (A08AL003)

  n	   NNSA sites are taking effective measures to reduce and correct nuclear criticality
       safety violations (A08AL002)

  n	   Material Recycling and Recovery program is on schedule to meet stockpile requirements
       (A08YT031)

  n	   Performance Based Incentives at the LANL clearly define performance measures
       and expectations to ensure the fee is earned (A08LA014)

  n	   LANL site contractor has corrected the pre-existing Work-for-Others billing
       condition and to determine whether Government funds were used to finance any
       Work-for-Others (A08LA016)

  n	   Lawrence Livermore National Laboratory subcontract costs were allowable and
       allocable (A08LL017)

  n	   NNSA is requiring facility contractors to ensure that warranty repairs are
       performed on newly constructed or remodeled facilities (A08LL019)


                                            34
OFFICE OF INSPECTOR GENER AL                         U . S . D E PA R T M E N T O F E N E R G Y
Measuring FY 2006 Performance Results




   n	   Department has fully implemented congressional direction on integrated spent
        fuel recycling (A08LV021)

   n	   Nevada Test Site is fully identifying, tracking, and resolving all conditions that
        could affect its mission (A08LVLV020)

   n	   Vendor supplied parts meet the Department’s established standards (A08AL001)

   n	   Radiation protection concerns at the LANL were corrected and resolved
        (A08LA013)

   n	   Contractor Assurance System has achieved NNSA oversight objectives
        (A08LA011)

   n	   Department’s laboratories have developed and implemented corrective actions
        to address identified weaknesses in their management of sensitive and high risk
        property (A08AL004)

   n	   Bonneville Power Administration’s Fish and Wildlife projects are being conducted
        in the most efficient and effective manner (A08DN009)

   n	   Department is effectively administering the funding of its Bioenergy Program
        (A08DN005)

   n	   Power Marketing Administrations are acquiring materials and equipment for
        transmission projects in the most cost effective manner (A08DN006)

   n	   Energy Efficiency and Renewable Energy is effectively administering the funding
        of its Solar Technology Pathway Partnerships (A08DN007)

   n	   Power Marketing Administrations spectrum relocation projects are within cost and
        schedule (A08DN009)

   n	   Department received the proper amount of money from the Great Plains Synfuels
        Plant revenue sharing agreement (A08OR028)

   n	   Department is on target to meet its planned 2011 date to establish energy
        efficiency standards for consumer and industrial products (A08OR025)

   n	   Federal Energy Regulatory Commission (FERC) has an effective safety and
        security inspection program for Liquified Natural Gas terminals (A08OR026)



                                             35
OFFICE OF INSPECTOR GENER AL                         U . S . D E PA R T M E N T O F E N E R G Y
                                                         Measuring FY 2006 Performance Results




   n	   FERC appropriately identifies and investigates potential energy market abuses in a
        timely manner (A08OR027)

   n	   Department has ensured that oil receipts from royalty-in-kind exchanges
        maximized revenue and met contractual obligations (A08OR024).


Environment, Science, and Corporate Management

To protect the environment by providing a responsible resolution to the environmental
legacy of the Cold War and by providing for the permanent disposal of the Nation’s
high-level radioactive waste, and to contribute to the protection of the U.S. national and
economic security by providing world-class scientific research capacity and advancing
scientific knowledge, the following audits will determine whether the:

   n	   Brookhaven Environmental Management Completion Program is meeting
        milestones and cost goals for environmental cleanup (A08PR018)

   n	   Legacy Management Records Storage Facility will meet the Department's need
        for transfer and storage of Environmental Management closure site records
        (A08ID014)

   n	   Office of Science laboratories are recovering all appropriate costs associated with
        joint appointments activities (A08CH002)

   n	   Argonne National Laboratory appropriately used General Plant Project funding
        for its upgrade projects (A08CH003)

   n	   Department has implemented the Board on Radioactive Waste Management report
        recommendations to improve the efficiency and cost effectiveness of the contact-
        handled transuranic waste characterization program (A08ID017)

   n	   Department is pursuing alternative uses for the DUF6 oxide (A08ET005)

   n	   Contract severance plans provide equitable benefits to all separated contractor
        employees (A08ID016)

   n	   Westinghouse Savannah River Company's procurement practices ensure that
        the Department receives the best value for the goods and services it purchases
        (A08SR032)




                                             36
OFFICE OF INSPECTOR GENER AL                         U . S . D E PA R T M E N T O F E N E R G Y
Measuring FY 2006 Performance Results




   n	   Department is efficiently operating the solid waste processing at the Hanford Site
        (A08RL025)

   n	   Department is effectively managing storage of Hanford Site tank waste
        (A08RL027)

   n	   Department is using appropriate seismic design criteria when designing and
        constructing major projects within the complex (A08SR031)

   n	   Department is meeting its goals for its research assistantships and education
        programs (A08PR019)

   n	   Cooperative agreements awarded by the Chicago Office are accomplishing their
        required results (A08CH001)

   n	   Department field sites are taking corrective actions to resolve safety issues arising
        under the Corrective Action Management Program (A08ID013)

   n	   Department has made progress on the recommendations from the previous
        Inspector General report on the Status of the Mixed Oxide Fuel Fabrication
        Facility (A08ET004)

   n	   Department land transfers and grants to the Community Reuse Organization of
        East Tennessee are achieving their intended goals (A08ET006)

   n	   Department has developed an integrated strategy for the reporting and disposition
        of unneeded materials and chemicals (A08GT008)

   n	   Remote Handled Transuranic Waste Program at the Waste Isolation Pilot Plant is
        operating effectively (A08ID015)

   n	   Department implemented operational efficiencies identified for the Waste
        Treatment Plant project (A08RL028)

   n	   Department has implemented an adequate 3013 Container surveillance capability
        (A08SR029)

   n	   Department has an effective strategy for disposing of mixed low-level waste
        throughout the complex (A08SR030)

   n	   Department has a comprehensive remediation strategy for miscellaneous waste
        tanks at the Hanford Site (A08RL026)


                                             37
OFFICE OF INSPECTOR GENER AL                         U . S . D E PA R T M E N T O F E N E R G Y
                                                          Measuring FY 2006 Performance Results




   n	   Department is meeting its commitment and deadlines for U.S. participation in the
        International Thermonuclear Experimental Reactor Project (A08ET007)

To assure the American public that the Department is fiscally responsible in carrying out
its mission; promotes effective contract management; ensures the Department has metrics
in place and uses them to manage its programs and activities effectively; and promotes
the safety and health of the Department's workforce, the following audits will determine
whether the:

   n	Department     is meeting its stewardship goals for the management of contractor
        pension plans (A08GT009)

   n	Department’s    process for accumulating performance results supports 	
        accurate, complete and reliable reporting of performance information and whether 	
        such information is being appropriately used by management (A08GT010)

   n	Department    is managing its Purchase Card Program in the most effective and 	
        economical manner (A08PT020)

   n	Department      and its contractors are appropriately awarding and utilizing 	
        consultant services to accomplish its mission (A08PT021)

   n	Department    and its contractors are properly managing defensive and tactical
        equipment (A08PT022)

   n	The    Department has effective programs and plans in place to ensure the efficient 	
        use of energy and water (A08PT023)

   n	Corrective     actions were implemented at LANL and other selected Departmental 	
        classified computing facilities that fully addressed security deficiencies identified 	
        in the Special Inquiry Report on “Selected Controls Over Classified Information 	
        at the Los Alamos National Laboratory” (A08TG033)

   n	Office    of Science is adequately managing its High Performance Computing 	
        resources and their use in the Innovative and Computational Impact on Theory 	
        and Experiment (INCITE) program (A08TG034)

   n	Department     is effectively utilizing systems for managing information 	
        technology assets (A08TG035)

   n	NNSA’s    Information Technology Organization is meeting mission needs and 	
        performance goals (A08TG036)



                                              38
OFFICE OF INSPECTOR GENER AL                          U . S . D E PA R T M E N T O F E N E R G Y
Measuring FY 2006 Performance Results




   n	Department   contractors have developed and implemented an effective 	
       mechanism for reporting security issues/violations (A08TG037)

   n	Department    is identifying and tracking its Accountable Classified Removal 	
       Electronic Media (A08TG038)

   n	Power     Marketing Administrations are effectively managing their information
       technology programs to include properly securing their systems and managing
       their information technology investments (A08TG039)

   n	Department’s    classified information systems have been appropriately certified 	
       and accredited for operation (A08TG040)

   n	Department   contractors’ Pension Benefit Guaranty Corporation premium
       payments are necessary (A08GT012)

   n	Department    contractors’ internal auditing functions operate in a manner that
       ensures objectivity and independence (A08GT011)

To contribute to the effectiveness of the Department’s financial management, the
following audits will be performed:

   n	A08FN001       – Department of Energy Consolidated Financial Statement FY 2008

   n	A08FN002       – FERC’s Financial Statement FY 2008

   n	A08FN003       – Isotope Production Distribution FY 2008

   n	A08FN004       – Decommissioning and Decontamination FY 2008

   n	A08FN005       – FMFIA FY 2008

   n	A08FN009       – Implementation of A-123 Appendix A FY 2008




                                           39
OFFICE OF INSPECTOR GENER AL                       U . S . D E PA R T M E N T O F E N E R G Y
THIS PAGE INTENTIONALLY LEFT BLANK
Measuring FY 2006 Performance Results




Office of Investigations
The Office of Investigations (OI) conducts investigations into alleged violations of
law that impact Department programs, operations, facilities, and personnel. Priority
is given to investigations of suspected violations of criminal and civil statutes, as well
as serious administrative misconduct. Criminal Investigators within OI work closely
with Department of Justice (DOJ) prosecutors and other Federal, State and local law
enforcement organizations utilizing a full range of law enforcement authorities, such
as carrying firearms, applying for and executing search warrants, and making arrests.
The work of OI, however, extends beyond the conduct of investigations – namely, the
office identifies opportunities for improving the economy and efficiency of Department
programs and operations by issuing reports that recommend positive change. OI’s
accomplishments are measured by recommendations accepted by management,
investigations accepted for prosecutive action, cooperative efforts with other law
enforcement agencies, and proactive initiatives. Through accomplishments in those areas,
the office plays a major role assisting the OIG in promoting the efficient, effective, and
economical operation of the Department, including NNSA.


National Program Area Initiative

The work performed by OI is primarily reactive in nature and has the potential of reaching
into any Department major program area, including NNSA. The establishment of the
National Program Area Initiative has afforded OI the opportunity to identify program areas
in the Department most vulnerable to fraud, waste, and abuse and to proactively dedicate
a significant portion of investigative resources, to include special agent training, liaison
development, and specialized studies, to those program areas. OI’s National Program Area
Initiative concentrates on four areas, which are also tied into the Department’s strategic
themes as identified in the 2007 Strategic Plan. The four areas are: (1) contract and
grant fraud; (2) environment, safety, and health (ES&H) violations; (3) Qui Tams; and,
(4) technology crimes. One of OI’s goals is to have 75 percent of its open investigations
address at least one of the four areas. In FY 2008, work on the National Program Area
Initiative will continue to move forward as plans are implemented and expanded.


Contract and Grant Fraud

During FY 2007, OI continued to identify and interact with key Department and NNSA
procurement personnel, as well as conduct fraud awareness briefings with special


                                             41
OFFICE OF INSPECTOR GENER AL                         U . S . D E PA R T M E N T O F E N E R G Y
                                                        Measuring FY 2006 Performance Results




emphasis on procurement and grant fraud. A majority of the Department’s budget is
expended on contracts and grants; therefore, the opportunity for fraud to occur or exist
within various Department programs is significant. During this reporting period, one
major success in this area involved a Department contractor who entered into a
$1.2 million civil settlement with the U.S. Government for submitting false claims.
Given the continuing potential for significant fraud, in FY 2008, OI will continue to:
(1) expand fraud awareness briefings throughout the Department, including NNSA;
(2) prioritize contract and grant fraud investigations, placing emphasis on cases with
a potential high dollar recovery to the Department; (3) work with established contract
and grant task forces, and identify opportunities to establish new task forces with DOJ
involvement; (4) coordinate and pursue leads referred by the OIG Offices of Audit
Services and Inspections and Special Inquiries; and, (5) identify and pursue contract and
grant fraud investigations proactively.


Environment, Safety, and Health

The Department’s program for cleaning up the environmental contamination caused by
nuclear weapons research, production, and testing is estimated to cost over $200 billion
over the next several decades. With the end of the Cold War, the mission to clean up
the environment has become more essential as a result of more than 50 years of nuclear
defense work and energy research. The OIG has identified environmental cleanup as
one of three Department FY 2008 management challenges that is likely to persist well
into the future. OI’s ES&H program area supports the Department’s Environmental
Responsibility strategic theme. Ensuring the safety and health of the public and the
Department’s workers is a top priority. In FY 2008, OI will continue to: (1) work with
established ES&H task forces, (2) identify opportunities to establish new task forces;
and, (3) develop and maintain ES&H contacts in the Department, NNSA, and other
Government agencies.


Qui Tams

As a rule, Qui Tam related allegations are complex and staff-hour intensive. As of
September 30, 2007, OI had 20 open Qui Tam investigations with claims alleging fraud
of $137 million. These investigations often have a major impact on the Department
and generally involve significant allegations of fraud involving millions of dollars and
multiple Federal agencies. OI continues to work closely with the DOJ’s Commercial
Litigation Branch in the investigation and analysis of Qui Tam cases. One such
investigation resulted in $2.3 million returned to the Government. Multiple contractors



                                            42
OFFICE OF INSPECTOR GENER AL                        U . S . D E PA R T M E N T O F E N E R G Y
Measuring FY 2006 Performance Results




received or provided benefits such as rebates, influence fees, referral fees, finder’s fees,
discounts, and/or development funds as a result of alliance agreements. This resulted
in false claims against Federal Government contracts. In FY 2008, OI will continue
to: (1) assist DOJ in investigating and providing analysis of Qui Tam cases; (2) adjust
resources appropriately to ensure priority Qui Tam cases are being resolved in a timely
manner; and, (3) identify specific Qui Tam training for OI personnel.


Technology Crimes

Information Technology, another of the Department’s major issue areas, received a
significant amount of OI’s resources and attention during FY 2007. OI’s Technology
Crimes Section (TCS) is staffed by investigators with the specialized skills necessary
to proactively and reactively investigate the expanding number of complex technology
crimes that are occurring within many of the Department’s programs. TCS further
strengthens OI’s support to the Department, including NNSA, in detecting, preventing,
and investigating illegal network intrusions. Utilization of such a group is critical
because of the risks and vulnerabilities on the rise (i.e., security breaches, computer
systems intrusions, virus attacks, and employee misuse). In FY 2007, TCS investigations
led to several criminal convictions against individuals who compromised Government
computers or misused them by accessing or storing sexually explicit material to include
child pornography. TCS also provided technical expertise on standard fraud cases.

During FY 2008, TCS will: (1) continue to proactively contribute to and support fraud
investigations through consultations and forensic media analysis; (2) investigate incidents of
technology crimes and non-compliance with applicable regulations involving protection of
the information infrastructure throughout the Department; (3) clarify and extend OI’s role
in technology incident response and investigations in the Department; (4) ensure all TCS
special agents continue to receive required technical training; and, (5) refine and provide
technology crimes awareness briefings throughout the Department complex.


Proactive Work

Historically, OI’s response to allegations of wrongdoing has been reactive in nature.
However, OI succeeded in implementing a process that streamlined and formalized
proactive case development with a targeted approach designed to ensure more efficient
and effective use of resources.

OI will continue its pursuit of proactive initiatives designed to effect positive change
within the Department and enhance OI’s ability to meet organizational goals and


                                             43
OFFICE OF INSPECTOR GENER AL                         U . S . D E PA R T M E N T O F E N E R G Y
                                                        Measuring FY 2006 Performance Results




objectives. Close attention will be paid to OI’s infrastructure needs to ensure adequate
skills, tools, and processes are in place to respond promptly and appropriately to
emerging priority issues identified by the President, Secretary, Congress, and public.
Partnerships with other established law enforcement agencies, Department managers,
and employees will be expanded, and productive sources of information will be further
cultivated.




                                            44
OFFICE OF INSPECTOR GENER AL                        U . S . D E PA R T M E N T O F E N E R G Y
Measuring FY 2006 Performance Results




Office of Inspections and
Special Inquiries
The Office of Inspections and Special Inquiries conducts performance and allegation-
based inspections, as well as special inquiries in response to concerns raised by Congress,
senior managers of the Department, and others. The Office also manages the OIG
Hotline and Management Referral Systems. The Office facilitates management reform
in the Department by evaluating and providing recommendations to improve program
performance.

Although the Office plans a portion of its annual inspection work, it retains flexibility
in order to be able to promptly address concerns and allegations received during the
course of the year. The Office of Inspections and Special Inquiries initiated an annual
average of 17 allegation-based inspections over the last 4 years. When planning its
performance inspection work, the Office identifies and prioritizes topics responsive to the
President’s Management Agenda, the Secretary’s Mission Priorities, and the Department’s
Management Challenges as identified by the OIG. Inspections are initiated with
consideration given to their significance and potential impact on Department programs
and operations. In light of current heightened concerns over homeland security, the
Office is focusing its resources to address critical safety and security issues affecting
programs and operations throughout the Department. The office is carrying 31 active
inspections into the new fiscal year, and the following are planned inspections for
FY 2008:


Nuclear Security

   n	Protective Force Weapons Contingency Training
   n	Physical Security of Special Nuclear Material at a Selected Site


   n	Security of Laptop Computers on Foreign Travel


   n	Response to Incidents of Security Concern at One or More Selected Sites


   n	Quarterly Intelligence Oversight Reviews


   n	Implementation of Two-Person Control Requirements




                                            45
OFFICE OF INSPECTOR GENER AL                        U . S . D E PA R T M E N T O F E N E R G Y
                                                  Measuring FY 2006 Performance Results




Management Excellence

  n	Accountability for Regulated Chemicals
  n	Accountability and Storage of Pharmaceuticals


  n	Management of State Constable Activities


  n	Management of Fire Department Contract at a Selected Site


  n	Management of Vital Records Under Continuity of Operations


  n	Safety Controls over Students Working at Department Laboratories


  n	Internal Controls over Purchase Card Use




                                       46
OFFICE OF INSPECTOR GENER AL                  U . S . D E PA R T M E N T O F E N E R G Y
Measuring FY 2006 Performance Results




Appendix A

FY2008 PERFORMANCE
PLAN SCHEDULE
Office of Audit Services

AUDIT
NUMBER		                TITLE


PLANNED FY 2008 PERFORMANCE AUDITS
National Security and Energy

A08AL001		              Quality Assurance over Vendor Supplied Parts

A08AL002		              Nuclear Criticality Safety Violations

A08AL003		              Nuclear Weapon Use Control

A08AL004		              Follow-up of Management of Non-Nuclear High Explosives

A08DN005		              EERE’s Bioenergy Program

A08DN006		              Power Marketing Administration Acquisition of Materials 			
			                     and Equipment

A08DN007		              EERE’s Solar Technology Pathway Partnerships

A08DN008		              Power Marketing Administration Spectrum Relocation Projects

A08DN009		              Bonneville Power Administration’s Fish and Wildlife

A08LA010		              Fire Protection at LANL

A08LA011		              LANL/KCP Oversight Programs



                                             47
OFFICE OF INSPECTOR GENER AL                         U . S . D E PA R T M E N T O F E N E R G Y
                                                  Measuring FY 2006 Performance Results




A08LA012		      LANL Subcontractor Property

A08LA013		      Radiation Protection at LANL

A08LA014		      Performance Based Incentives at LANL

A08LA015		      DARHT Second Axis

A08LA016		      Work for Others at LANL

A08LL017		      Selected Subcontract Costs

A08LL018		      SLAC Light Source Project

A08LL019		      Construction Rework

A08LV020		      Corrective Action Program at NTS

A08LV021		      Integrated Spent Fuel Recycling

A08LV022		      Test Readiness at NTS

A08LV023		      2007 Cost Incurred – Nevada

A08OR024		      Department’s Management of Royalty-in-Kind for SPRO

A08OR025		      Energy Efficiency Standards

A08OR026		      FERC’s Liquefied Natural Gas Terminal Safety and 				
			             Security Inspection Program

A08OR027		      FERC’s Oversight and Investigations Program

A08OR028		      Revenue Sharing at the Great Plains Synfuels Plant

A08YT029		      Pantex Throughput Improvement

A08YT030		      Quality Assurance at Y-12

A08YT031		      Material Recycling and Recovery




                                    48
OFFICE OF INSPECTOR GENER AL                  U . S . D E PA R T M E N T O F E N E R G Y
Measuring FY 2006 Performance Results




Environment, Science, and Corporate

A08CH001		              Chicago’s Cooperative Agreements

A08CH002		              Joint Appointments at Office of Science Laboratories

A08CH003		              General Plant Projects at Argonne National Laboratory

A08ET004		              Follow-up of the Mixed Oxide Fuel Fabrication Facility

A08ET005		              DUF6 Research and Development Activities

A08ET006		              Department Land Transfers and Grants to CROET

A08ET007		              International Thermonuclear Experimental Reactor Project

A08GT008		              Follow-up of Excess Materials and Chemicals

A08GT009		              Stewardship of Contractor Pension Plans

A08GT010		              Department Performance Measures

A08GT011		              Internal Audit Compliance with Cooperative Audit Strategy

A08GT012		              Department’s Payment of Premiums to the Pension Benefit 			
			                     Guaranty Corporation

A08ID013		              Resolving Personal Safety Issues at the Department

A08ID014		              Office of Legacy Management’s Storage of EM Closure Site 		
			                     Records

A08ID015		              Remote Handled Transuranic Waste Program at the Waste 			
			                     Isolation Pilot Plant

A08ID016		              Comparability of Severance Benefits across the DOE Complex
	
A08ID017		              Department’s Implementation of the National Research Council’s 		
			                     Recommendations to Improve the Contact-Handled 	Transuranic 		
			                     Waste Characterization Program

A08PR018		              Brookhaven Environmental Management Completion Program

A08PR019		              Management of the Department’s Funded Science Education 		
			                     Programs


                                            49
OFFICE OF INSPECTOR GENER AL                        U . S . D E PA R T M E N T O F E N E R G Y
                                                 Measuring FY 2006 Performance Results




A08PT020		      Management of the Department’s Purchase Card Program

A08PT021		      Department’s Use of Consultant Services

A08PT022		      Management of Defensive and Tactical Equipment

A08PT023		      Energy Use Management at Department Facilities

A08PT024		      Survey of Health Benefits at Department Contractors

A08RL025		      Solid Waste Processing at the Hanford Site

A08RL026		      Hanford’s Miscellaneous Waste Tanks

A08RL027		      High-Level Waste Storage at the Hanford Site

A08RL028		      Operational Efficiencies at the Hanford Site’s Waste 			
			             Treatment Plant

A08SR029		      Plutonium Container Surveillance and Storage Capability

A08SR030		      Disposal Space for Mixed Low-Level Nuclear Waste within 		
			             the Department

A08SR031		      Seismic Design Criteria for Facilities within the Department
	
A08SR032		      Contractor Procurement Practices at the Savannah River Site
	
A08TG033		      Physical and Cyber Security Controls over Classified 			
			             Computing Facilities

A08TG034		      Innovative and Novel Computational Impact on Theory and 		
			             Experiment (INCITE) Program

A08TG035		      Department Information Technology Asset Management System

A08TG036		      NNSA’s Information Technology Organization

A08TG037		      Security Infraction Notification Process at Department 			
			             Management and Operating Contractors

A08TG038		      Control over the Department’s Accountable Classified Removable 		
			             Electronic Media


                                     50
OFFICE OF INSPECTOR GENER AL                 U . S . D E PA R T M E N T O F E N E R G Y
Measuring FY 2006 Performance Results




A08TG039		              Management of Information Technology at the Power 			
			                     Marketing Administrations

A08TG040		              Certification and Accreditation of Classified Information 			
			                     Systems

A08TG041		              Department’s Implementation of FISMA

A08TG042		              FERC’s Implementation of FISMA	


PLANNED FY 2008 GMRA AUDITS

A08FN001		              Department’s Consolidated Financial Statement Audit FY 2008

A08FN002		              FERC’s Financial Statement Audit FY 2008

A08FN003		              Isotope Production Distribution FY 2008

A08FN004		              Decommissioning and Decontamination FY 2008

A08FN005		              FMFIA FY 2008

A08FN006		              IT Management Letter FY 2008

A08FN007		              Financial Management Letter FY 2008

A08FN008		              Agreed-upon-Procedures for Payroll FY2008

A08FN009		              Implementation of A-123 Appendix A FY 2008


PLANNED FY 2008 ATTESTATION ENGAGEMENTS

A08AL032		              Sandia 2007 SCIC

A08DN033		              Midwest Research Institute 2004-2007 SCIC

A08LA034		              University of California at Los Alamos 2006 SCIC

A08LA035		              Los Alamos National Security LLC 2006 SCIC

                                           51
OFFICE OF INSPECTOR GENER AL                       U . S . D E PA R T M E N T O F E N E R G Y
                                                Measuring FY 2006 Performance Results




A08LA036		      Los Alamos National Security LLC 2007 SCIC

A08LL037		      University of California at Livermore 2006 SCIC

A08LL038		      University of California at Livermore 2007 SCIC

A08LL039		      Stanford University 2004-2007 SCIC

A08LV040		      Bechtel SAIC Co. 2005-2007 SCIC

A08YT041		      BWXT Y-12 LLC 2007 SCIC

A08YT042		      Honeywell International Inc. 2007 SCIC

A08CH043		      U Chicago Argonne LLC 2007 SCIC

A08CH044		      URA Inc (FERMI) 2005-2007 SCIC

A08ET045		      UT Battelle LLC 2007 SCIC

A08ET046		      Bechtel Jacobs Co. LLC 2007 SCIC

A08ID047		      Battelle Energy Alliance 2007 SCIC

A08ID048		      Washington TRU Solutions (WIPP) 2004-2007 SCIC

A08PR049		      Brookhaven Sciences Associates LLC 2005-2007 SCIC

A08RL050		      Battelle Memorial Institute 2005-2007 SCIC

A08SR051		      Washington Savannah River Company 2007 SCIC




                                    52
OFFICE OF INSPECTOR GENER AL                U . S . D E PA R T M E N T O F E N E R G Y
Measuring FY 2006 Performance Results




Office of Inspections and Special Inquiries
	     Title
________________________________________________________________________

National Security

   n	Physical Security of Special Nuclear Material at a Selected Site
   n	Security of Laptop Computers on Foreign Travel


   n	Quarterly Intelligence Oversight Reviews


   n	Implementation of Two-Person Control Requirements


________________________________________________________________________

Management Excellence

   n	Accountability for Regulated Chemicals
   n	Accountability and Storage of Pharmaceuticals


   n	Management of Fire Department Contract at a Selected Site


   n	Management of Vital Records Under Continuity of Operations at a Selected Site


   n	Safety Controls over Students Working at Department Laboratories


   n	Internal Controls over Purchase Card Use




                                          53
OFFICE OF INSPECTOR GENER AL                     U . S . D E PA R T M E N T O F E N E R G Y
THIS PAGE INTENTIONALLY LEFT BLANK
Measuring FY 2006 Performance Results




Appendix B


OIG RESPONSIBILITIES AND
AUTHORITIES

The Inspector General Act of 1978, as amended, requires the OIG to:

       n	   Conduct independent and objective audits and investigations;

       n	   Promote economy, efficiency, and effectiveness;

       n	   Prevent and detect waste, fraud, and abuse;

       n	   Review pending legislation and regulations; and,

       n	   Keep the Secretary and Congress fully and currently informed.



OTHER MANDATES
       n	   Government Performance and Results Act (GPRA) of 1993. Continuous
            review of the Department’s implementation.

       n	   Executive Order 12863, "President's Foreign Intelligence Advisory
            Board," 1993. Reports to the Intelligence Oversight Board as required
            quarterly and “as necessary or appropriate.” This includes reviews to ensure
            the Department’s intelligence activities are conducted in accordance with
            existing requirements of Executive Order 12333, “United States Intelligence
            Activities.”

       n	   Government Management Reform Act (GMRA) of 1994. Annual audit of
            Department-wide and designated component financial statements. This effort
            currently requires approximately 24 percent of the OIG’s resources, including
            contractual assistance from an external audit firm.




                                            55
OFFICE OF INSPECTOR GENER AL                        U . S . D E PA R T M E N T O F E N E R G Y
                                                      Measuring FY 2006 Performance Results




     n	   National Defense Authorization Act of 2000. Annual review of Department
          policies and procedures with respect to the export of sensitive U.S. military
          technologies and information to countries and entities of concern.

     n	   Reports Consolidation Act of 2000. Annual audit to identify the most
          significant management and performance challenges facing the Department.

     n	   Federal Information Systems Management Act (FISMA) of 2002. Annual
          review of Department information security systems.

     n	   Section 522 of the Consolidated Appropriations Act of 2005. Biennial review
          of the actions of the Department’s Chief Privacy Officer.

     n	   OMB Circular No. A-123, Management Accountability and Control. New
          and expanded audit requirements are anticipated.

     n	   Department of Energy Orders. Audits of statements of costs incurred and
          claimed by the Department’s integrated contractors.




                                          56
OFFICE OF INSPECTOR GENER AL                      U . S . D E PA R T M E N T O F E N E R G Y
Measuring FY 2006 Performance Results




Appendix C

OIG Organization
The OIG is organized into three major functional areas and a corporate support office:

   n	   Office of Audit Services

   n	   Office of Investigations

   n	   Office of Inspections and Special Inquiries

   n	   Office of Resource Management

OIG field offices are located at key Department sites around the Nation.




                                            57
OFFICE OF INSPECTOR GENER AL                          U . S . D E PA R T M E N T O F E N E R G Y
THIS PAGE INTENTIONALLY LEFT BLANK
Measuring FY 2006 Performance Results




Appendix D

Validation and Verification
The chart below represents how the OIG validates and verifies its performance activities.


Data Sources:	          OIG Semiannual Reports to Congress; Inspector General Act of 		
                 	      1978, as amended; Government Management Reform Act; 			
                 	      Government Performance and Results Act; Government
                 	      Information Security Reform Act; False Claims Act; Executive
                 	      Order 12863, “President’s Foreign Intelligence Advisory Board”;
                 	      and, Executive Order 12333, “United States Intelligence Activities.”


Frequency:		            Biennially/Annually/Semiannually/Quarterly.


Data Storage: 	         OIG Energy Inspector General Project Tracking System.


Verification:		        OIG policies and procedures; Yellow Book Standards; President’s 		
                 	     Council on Integrity and Efficiency Quality Standards for 	
                 	     Investigations and Inspections; and internal and external peer
                 	     reviews.




                                             59
OFFICE OF INSPECTOR GENER AL                        U . S . D E PA R T M E N T O F E N E R G Y
 U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
